Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to Congress. In addition, the
Office of Inspector General provides audit reports to Congress. This report is intended
for the information of management of the Department of the Interior, OMB, and
Congress. This report, however, is a matter of public record, and its distribution is not
limited.



                                      Roger La Rouche
                                      Assistant Inspector General for Audits
Attachment:
 Independent Auditors Report



[CONTACT THE MINERALS MANAGEMENT SERVICE FOR INFORMATION
ON ITS FINANCIAL STATEMENTS FOR FISCAL YEAR 2000, WHICH ARE NOT
INCLUDED.]
